HHS/OIG, Audit - "Review of Aid to Families With Dependent
Children Overpayments in Massachusetts for the Period April 1, 2001, Through
March 31, 2005," (A-01-06-02508)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Aid to Families With
Dependent Children Overpayments in Massachusetts for the Period April 1, 2001,
Through March 31, 2005," (A-01-06-02508)
April 23, 2007
Complete Text of Report is available in PDF format (500 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Massachusetts had reimbursed the Administration for Children and Families (ACF) for the Federal share of overpayments collected from former Aid to Families with Dependent Children (AFDC) recipients, in accordance with Federal requirements. Massachusetts did not reimburse the full Federal share of AFDC overpayments that it collected from former AFDC recipients from April 1, 2001, through March 31, 2005, as Federal regulations require. Massachusetts refunded $6,281,372 to ACF for the Federal share of AFDC collections. However, it should have refunded $6,331,084. It incorrectly credited $99,424 in AFDC overpayment recoveries to another program. As a result, Massachusetts owes the Federal Government $49,712 for the Federal share of these overpayments. Massachusetts agreed with our finding and recommendations.